<html>
<title> - FULL COMMITTEE MARKUP OF H.R. 2352 THE JOB CREATION THROUGH ENTREPRENEURSHIP ACT OF 2009</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
                        FULL COMMITTEE MARKUP OF
                               H.R. 2352
                            THE JOB CREATION
                        THROUGH ENTREPRENEURSHIP
                              ACT OF 2009

=======================================================================

                                HEARING

                               before the


                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                              May 13, 2009

                               __________

                               [GRAPHIC] [TIFF OMITTED] TONGRESS.#13
                               

            Small Business Committee Document Number 111-022
Available via the GPO Website: http://www.access.gpo.gov/congress/house


                  U.S. GOVERNMENT PRINTING OFFICE
49-617                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                   HOUSE COMMITTEE ON SMALL BUSINESS

                NYDIA M. VELAZQUEZ, New York, Chairwoman

                          DENNIS MOORE, Kansas

                      HEATH SHULER, North Carolina

                     KATHY DAHLKEMPER, Pennsylvania

                         KURT SCHRADER, Oregon

                        ANN KIRKPATRICK, Arizona

                          GLENN NYE, Virginia

                         MICHAEL MICHAUD, Maine

                         MELISSA BEAN, Illinois

                         DAN LIPINSKI, Illinois

                      JASON ALTMIRE, Pennsylvania

                        YVETTE CLARKE, New York

                        BRAD ELLSWORTH, Indiana

                        JOE SESTAK, Pennsylvania

                         BOBBY BRIGHT, Alabama

                        PARKER GRIFFITH, Alabama

                      DEBORAH HALVORSON, Illinois

                  SAM GRAVES, Missouri, Ranking Member

                      ROSCOE G. BARTLETT, Maryland

                         W. TODD AKIN, Missouri

                            STEVE KING, Iowa

                     LYNN A. WESTMORELAND, Georgia

                          LOUIE GOHMERT, Texas

                         MARY FALLIN, Oklahoma

                         VERN BUCHANAN, Florida

                      BLAINE LUETKEMEYER, Missouri

                         AARON SCHOCK, Illinois

                      GLENN THOMPSON, Pennsylvania

                         MIKE COFFMAN, Colorado

                  Michael Day, Majority Staff Director

                 Adam Minehardt, Deputy Staff Director

                      Tim Slattery, Chief Counsel

                  Karen Haas, Minority Staff Director

        .........................................................

                                  (ii)

  
?

                         STANDING SUBCOMMITTEES

                                 ______

               Subcommittee on Contracting and Technology

                     GLENN NYE, Virginia, Chairman


YVETTE CLARKE, New York              AARON SCHOCK, Illinois, Ranking
BRAD ELLSWORTH, Indiana              ROSCOE BARTLETT, Maryland
KURT SCHRADER, Oregon                TODD AKIN, Missouri
DEBORAH HALVORSON, Illinois          MARY FALLIN, Oklahoma
MELISSA BEAN, Illinois               GLENN THOMPSON, Pennsylvania
JOE SESTAK, Pennsylvania
PARKER GRIFFITH, Alabama

                                 ______

                    Subcommittee on Finance and Tax

                    KURT SCHRADER, Oregon, Chairman


DENNIS MOORE, Kansas                 VERN BUCHANAN, Florida, Ranking
ANN KIRKPATRICK, Arizona             STEVE KING, Iowa
MELISSA BEAN, Illinois               TODD AKIN, Missouri
JOE SESTAK, Pennsylvania             BLAINE LUETKEMEYER, Missouri
DEBORAH HALVORSON, Illinois          MIKE COFFMAN, Colorado
GLENN NYE, Virginia
MICHAEL MICHAUD, Maine

                                 ______

              Subcommittee on Investigations and Oversight

                 JASON ALTMIRE, Pennsylvania, Chairman


HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma, Ranking
BRAD ELLSWORTH, Indiana              LOUIE GOHMERT, Texas
PARKER GRIFFITH, Alabama

                                 (iii)

  
?

               Subcommittee on Regulations and Healthcare

               KATHY DAHLKEMPER, Pennsylvania, Chairwoman


DAN LIPINSKI, Illinois               LYNN WESTMORELAND, Georgia, 
PARKER GRIFFITH, Alabama             Ranking
MELISSA BEAN, Illinois               STEVE KING, Iowa
JASON ALTMIRE, Pennsylvania          VERN BUCHANAN, Florida
JOE SESTAK, Pennsylvania             GLENN THOMPSON, Pennsylvania
BOBBY BRIGHT, Alabama                MIKE COFFMAN, Colorado

                                 ______

     Subcommittee on Rural Development, Entrepreneurship and Trade

                  HEATH SHULER, Pennsylvania, Chairman


MICHAEL MICHAUD, Maine               BLAINE LUETKEMEYER, Missouri, 
BOBBY BRIGHT, Alabama                Ranking
KATHY DAHLKEMPER, Pennsylvania       STEVE KING, Iowa
ANN KIRKPATRICK, Arizona             AARON SCHOCK, Illinois
YVETTE CLARKE, New York              GLENN THOMPSON, Pennsylvania

                                  (iv)

  
?

                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page

Velazquez, Hon. Nydia M..........................................     1
Graves, Hon. Sam.................................................     2

                                APPENDIX


Prepared Statements:
Velazquez, Hon. Nydia M..........................................    11
Graves, Hon. Sam.................................................    13

Documents for the Record:
H.R. 2352 The Job Creation Through Entrepreneurship Act of 2009..    15
Amendment to H.R. 2352 Offered by Ms. Dahlkemper of Pennsylvania.    65
Amendment to H.R. 2352 Offered by Mr. King if Iowa...............    66
Amendment to H.R. 2352 Offered by Ms. Halvorson of Illinois......    68
Internation Franchise Association................................    69

                                  (v)

  


                        FULL COMMITTEE MARKUP OF
                               H.R. 2352
                            THE JOB CREATION
                        THROUGH ENTREPRENEURSHIP
                              ACT OF 2009

                        Wednesday, May 13, 2009

                     U.S. House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 2:00 p.m., in Room 
2360, Rayburn House Office Building, Hon. Nydia M. Velazquez 
[Chair of the Committee] presiding.
    Present: Representatives Velazquez, Moore, Shuler, 
Dahlkemper, Kirkpatrick, Nye, Clarke, Ellsworth, Halvorson, 
Graves, Bartlett, Akin, King, Gohmert, Fallin, Buchanan, 
Luetkemeyer, Schock, and Thompson.
    Chairwoman Velazquez. I am pleased to call this afternoon's 
markup to order.
    We are here today to mark up H.R. 2352, the Job Creation 
Through Entrepreneurship Act of 2009, which reauthorizes and 
modernizes the SBA's entrepreneurial development programs. The 
bill expands the resources available to small businesses. In 
doing so, it will help spur job creation and economic growth.
    In their day-to-day operation, small firms are encountering 
many challenges, from declining revenue to difficulty securing 
a loan. Given these uncertain times, access to technical 
assistance is especially critical. In some cases, it can mean 
the difference between a business's success and its failure.
    Today, small business growth is especially important. With 
unemployment at a 26-year high, we need entrepreneurs now more 
than ever. They are the ones who are going to reverse this 
trend and produce the jobs our country needs. Small businesses 
have a proven record for job creation. After the recession of 
the early 1990s, small firms created approximately 3.8 million 
new positions. That number outdid large firms by half a 
million. During that time, it was often the laid-off factory 
worker or the downsized corporate executive who decided to 
start a business. In fact, nearly 25 percent of downsized 
managers over the age of 40 started their own firms.
    The connection between economic growth and entrepreneurial 
development is clear. By helping firms increase the efficiency 
of their businesses, H.R. 2352 will enable them to not only 
maintain, but hopefully expand their operations.
    I look forward to continuing the committee's work on this 
important legislation.
    And I now yield to Ranking Member Graves for his opening 
remarks.
    [The statement of Chairwoman Velazquez is included in the 
appendix.]
    Mr. Graves. Good morning.
    Thank you, Madam Chair. And I would like to thank you for 
holding this markup on the Job Creation Through 
Entrepreneurship Act of 2009. This legislation makes critical 
changes to the entrepreneurial program at the SBA at a time 
when many small business owners are struggling every day just 
to stay afloat. I thank the chairwoman for moving very quickly 
on this important bill.
    The SBA's entrepreneurship development program provides 
necessary tools for America's small businesses to not only 
exist but to succeed. Many entrepreneurs turn to this program 
for assistance in starting their businesses and for advice in 
helping their businesses grow. As we all know, the success or 
failure of small businesses in large cities and rural towns 
throughout our Nation is a direct reflection of our economic 
health.
    Currently, small businesses are finding it increasingly 
difficult to meet their bottom line, much less become a 
thriving business. Creative methods are being employed by 
entrepreneurs throughout the country as they try to figure out 
for themselves how to survive in this new economic climate.
    The Job Creation Through Entrepreneurship Act of 2009 
contains vital components that work to increase coordinations, 
streamline duplication and entrepreneurial development programs 
and spur job growth. As we have heard from multiple testimonies 
from those close to the issue, increased cooperation among 
these programs is vital to these services provided by the SBA.
    This legislation also modernizes the distance learning 
function of the SBA by requiring the development of far-
reaching online courses tailored to today's entrepreneur. This 
new function will empower small business owners in the most 
remote areas of the country. In short, this bill sharpens 
already existing tools employed by the SBA to cultivate one of 
our Nation's greatest natural resources, its entrepreneurs.
    Once again, I want to thank you for holding this timely 
markup on an important matter.
    Chairwoman Velazquez. Are there any other members that wish 
to be recognized for an opening statement?
    Mr. Shuler.
    Mr. Shuler. Madam Chair, thank you.
    I want to commend you and the ranking member, Mr. Graves, 
for your continued work in a bipartisan way as you can look at 
this piece of legislation that is coming before us today. Both 
Democrats and Republicans are authors of these bills. They came 
out of subcommittee unanimously. And I just want to commend 
both you and all of the staff for their hard work, their 
dedication, and what it means to entrepreneurs and businesses 
across this country.
    Thank you for your dedication.
    Chairwoman Velazquez. For the purpose of an opening 
statement, Mr. Nye.
    Mr. Nye. Thank you, Madam Chairwoman. I appreciate your 
efforts to move this comprehensive package of legislation 
forward, and I especially thank you for working with me on the 
provisions that I authored to help our Nation's veteran 
entrepreneurs.
    Madam Chairwoman, it takes a special kind of person to be 
an entrepreneur. Small business ownership involves leadership. 
It requires ingenuity. And in times like these, it necessitates 
resilience. So it is not surprising that as they reenter 
civilian life, many of our returning soldiers, sailors, 
marines, airmen and airwomen decided to launch their own 
enterprises. After all, these are the same attributes they 
exhibited while serving our Nation.
    In my district, we have the second largest concentration of 
veterans of any congressional district in the country. My 
district is home to Norfolk Naval Base, the largest naval base 
in the world, and in our community there are countless veteran-
owned businesses that are vital to our local economy. The 
measure that we are considering today will give veteran 
entrepreneurs everywhere the support they need to launch new 
enterprises and to grow existing businesses.
    The cornerstone of this effort will be a new nationwide 
network of services dedicated to veteran entrepreneurs. 
Establishing this network will provide veterans with dedicated 
counseling and business training. These provisions also offer 
services to help veterans transition to entrepreneurship.
    I am proud we are paying special attention to the needs of 
service-disabled men and women. This legislation will expand 
outreach to them with tailored business training and will help 
them find and secure new business opportunities.
    This bill tackles some of the barriers to veteran 
entrepreneurship that stem from current economic conditions. By 
creating a new program to assist veterans in accessing capital 
and in securing loans and credit, we will help them overcome 
some of the most significant hurdles blocking them from 
becoming successfully employed.
    And finally, we will also help our veterans navigate the 
procurement process and compete more effectively in the Federal 
marketplace.
    The Recovery Act is expected to create work in many sectors 
that are veteran dominated, like engineering, 
telecommunications, project management and construction. This 
bill will help veteran entrepreneurs avail themselves of these 
opportunities.
    Madam Chair, our men and women have served our country well 
and they deserve a fair shot at the American dream, and for 
that reason these provisions have the backing of both the 
American Legion and the Veterans of Foreign Wars. But more 
importantly, they have the support of thousands of our Nation's 
bravest veterans.
    I strongly urge the bill's passage, and I yield back the 
balance of my time.
    Chairwoman Velazquez. For the purpose of opening remarks, 
Mr. Luetkemeyer.
    Mr. Luetkemeyer. Good afternoon.
    A special thank you to Madam Chairwoman for the opportunity 
to mark up critical legislation aimed at making entrepreneurial 
development programs more effective and responsive to the needs 
of small businesses. At a time when small businesses are 
struggling, we must work to improve the usefulness of these 
initiatives. Rather then relying so heavily on the government 
to spend our way out of this recession, we need to focus on 
ensuring that our small businesses, truly the engines of job 
creation, are able to utilize all of the resources already 
available.
    As a small businessman, I am pleased to support a bill that 
will assist many fellow business owners and employees 
throughout my district in Missouri and all throughout the 
country. Two out of every three jobs created in the U.S. Are 
created by small business. And like every recession before, 
small business will lead the way to economic growth through 
determination and innovation.
    I want to thank my colleagues for their commitment to 
sponsoring legislation to improve programs that assist 
entrepreneurs with practical and technical skills needed to 
start and sustain a business. As Louis Celli, CEO of the 
Northeast Veterans Business Resources Center in Boston, put it 
at a recent hearing on this subject, this committee has exactly 
the right focus by wanting to interweave these programs 
together and really force everybody to play in the same 
sandbox. And by making entrepreneurial development programs 
more effective, we cannot only be more responsible to small 
businesses but also better stewards of taxpayers' dollars.
    Madam Chairwoman, I certainly appreciate your help and 
Ranking Member Graves. I would also like to give a "thank you" 
to Subcommittee Chairman Shuler for his fine work and 
commitment on getting this bill together and brought to 
committee. It certainly has my support.
    And with that, I yield back.
    Chairwoman Velazquez. For the purpose of opening remarks, 
Ms. Fallin.
    Ms. Fallin. Thank you, Madam Chair, and let me just say 
"thank you" to Representative Shuler and Representative 
Luetkemeyer on this important piece of legislation. I also want 
to say "thank you" to Ranking Member Graves and yourself, Madam 
Chair, for allowing my bill, H.R. 1838, the SBA Women's 
Business Centers Improvement Act, to be included in this Job 
Creation Through Entrepreneurship Act. As we may remember, this 
piece of legislation language that I have passed out of the 
committee and off the floor last year and then, of course, it 
got over to the Senate where it died a death. So we have 
included this piece of legislation back in this bill.
    This section of legislation rearranges the distribution of 
funding for the Women's Business Centers for offering temporary 
assistance rather than permanent dependency on the Federal 
Government. In the mid-1990s, the Federal Government began 
awarding grants to Women Business Centers that were operating 
as nonprofit operations in conjunction with institutions of 
higher learning. Originally, these grants were intended to be 
awarded to business centers in the first 5 years with the 
understanding that after this 5th-year period had ended, the 
center itself would be self-sustaining. And although many 
Women's Business Centers did meet this goal, some did not and 
for a variety of reasons. And as a result, a greater percentage 
of the funding of this program had been consumed by the 
operating costs of potentially unviable centers rather than its 
intended purpose of establishing new Women's Business Centers. 
So this was a drag upon the system and the viable business 
centers that were not truly serving in their communities. And 
we felt like we needed to language in this to add 
accountability and transparency within the funding and to add 
measurable results. And I appreciate you including this 
language, once again, in this overall piece of legislation.
    Thank you so much.
    Chairwoman Velazquez. For the purpose of opening remarks, 
Mr. Buchanan.
    Mr. Buchanan. First, I want to thank the chairwoman and 
ranking member, along with Mr. Shuler, for their help for 
including my legislation, a bill to modernize the SBA SCORE 
program, and to the larger bill before us today. For years, the 
SCORE program is providing entrepreneurs with free, 
confidential and valuable small business advice. Nationwide, 
SCORE has 389 chapters throughout the United States. They have 
10,500 volunteers. I know in our local chamber, which I chaired 
a couple of years ago, they had a huge positive impact on many 
of our small members there.
    My legislation will help ensure that qualified SCORE 
volunteers are available to provide one-on-one advice and 
counsel to small business owners in Florida and also across the 
country.
    Again, I want to thank Madam Chairwoman and Ranking Member 
for working with me on this proposal. I look forward to more 
such efforts throughout this congressional session.
    I yield back.
    Chairwoman Velazquez. Mr. Schock for the purpose of opening 
remarks.
    Mr. Schock. Thank you, Madam Chairwoman. And I also wish to 
thank you and Ranking Member Graves for moving this important 
piece of legislation through the committee. I also wish to 
thank Mr. Shuler and Luetkemeyer for their leadership at the 
subcommittee level to ensure that this legislation has both 
comprehensive and bipartisan support for overhauling and 
updating a number of the programs upon which our small business 
owners depend.
    I am specifically pleased with inclusion of title VII of 
this legislation, which incorporates the language of House 
Resolution 1845, which I introduced to help modernize small 
business development centers. Small business development 
centers, or SBDCs, serve as important resources for small 
business owners. SBDCs provide emerging entrepreneurs with the 
tools needed to successfully take their small business concepts 
into reality and provide existing small business owners with 
important financial and budgeting consulting and also assist in 
long-term growth in management.
    The investments made in the SBDC network provide a cost-
effective way to help stimulate the economy while also 
enhancing American competitiveness around the world. The facts 
are clear. A new business is opened by an SBDC client every 41 
minutes. A new job is created in the United States by an SBDC 
client every 7 minutes. And in 2007 alone, SBDC clients created 
over 70,000 new full-time jobs.
    With the current economic conditions, more and more small 
business owners are visiting their local SBDC seeking advice on 
how to best manage their resources. As such, I am pleased with 
the inclusion of the language of House Resolution 1845 in the 
Job Creation Through Entrepreneurship Act in the committee 
today. This legislation will do a great deal to continue to 
help develop those resources important to all U.S. Small 
business owners.
    With that, I urge the passage of this legislation and yield 
back to you, Madam Chairwoman.
    Chairwoman Velazquez. Are there any other members that wish 
to be recognized?
    As the first order of business, we will consider H.R. 2352, 
the Job Creation Through Entrepreneurship Act of 2009, 
introduced by Representatives Shuler and Luetkemeyer.
    H.R. 2352 has strong bipartisan support, and I am proud 
that seven members of this committee--including five members 
from the minority--contributed to it. This bill has the backing 
of the U.S. Women's Chamber of Commerce, the Association of 
Enterprise Opportunity, the National Small Business 
Association, the Veterans of Foreign Wars, and the National 
Black Chamber of Commerce. In addition, a number of groups have 
submitted letters in support of the bills that comprise H.R. 
2352.
    In title I, this legislation establishes a Veterans 
Business Center program within the SBA. That provision will 
give entrepreneurial training and counseling to veterans. In 
order to oversee and implement this initiative, a Director 
position is established. The person will report to the 
Associate Administrator for Veterans Business Development.
    In title II, the Act creates a distant learning program 
that will be used to provide entrepreneurial education and 
training. This will draw on the latest technology and be of 
particular use in rural regions that lack access to such 
counseling services.
    Title III establishes the Office of Native American Affairs 
within SBA and designates an Associate Administrator for Native 
American Affairs to oversee this office. The responsibilities 
of the office include developing and implementing tools and 
strategies to increase Native American entrepreneurship. In 
addition, title III authorizes the SBA to operate a tribal 
business information center program.
    Title IV modernizes the SCORE program and asks its 
administrator to actively recruit among 10 volunteer mentors. 
This requirement will ensure the program reflects socially and 
economically disadvantaged sectors of the population.
    In addition, title V codifies SCORE responsibilities, 
including the establishment of small business mentoring and 
networking programs.
    Title VI modernizes SBA delivery of entrepreneurial 
services. This requires the SBA to develop and submit a plan to 
Congress for creating jobs through its ED program. It also 
requires the SBA to measure program performance and job 
creation.
    Meanwhile, title VII streamlines the Small Business 
Development Center program and establishes four new 
subprograms. Part of this process will refine eligibility 
guidelines, modernize nationwide guidelines, and place limits 
on authorized pilot programs. The committee included specific 
language in the legislation to ensure funding for these 
additional subprograms is separate from core SBDC funding. That 
means the legislation can facilitate the development of 
specialized services for eligible centers while protecting core 
funding for the program.
    With a renewed emphasis on entrepreneurship, the Nation can 
emerge from the current recession stronger and with more 
resilience. This bill is a critical step in allowing that to 
happen, and I urge my colleagues to support its approval.
    I now yield to Ranking Member Graves for his remarks.
    Mr. Graves. Thank you. I think I said pretty much 
everything I needed to say in my opening statement, but I want 
to thank my staff and your staff for working everything out.
    Chairwoman Velazquez. The committee now moves the 
consideration of H.R. 2352.
    The Clerk will report the title of the bill.
    The CLERK. To amend the Small Business Act and for other 
purposes.
    [The information is included in the appendix.]
    Chairwoman Velazquez. I ask unanimous consent that the bill 
in its entirety be open for amendments at this time.
    Does any member seek recognition for the purpose of 
offering an amendment?
    The gentlelady, Ms. Dahlkemper, is recognized for 5 
minutes.
    Mrs. Dahlkemper. Madam Chairwoman, I have an amendment at 
the desk.
    The CLERK. An amendment to H.R. 2352, an amendment offered 
by Ms. Dahlkemper of Pennsylvania. Page 10--
    [The information is included in the appendix.]
    Chairwoman Velazquez. I ask unanimous consent that the 
amendment be considered as read.
    The gentlelady is recognized.
    Mrs. Dahlkemper. Thank you, Madam Chairman.
    My amendment will allow members of the National Guard and 
Reserve access to the Veterans Business Centers. As a reserve 
military force, the National Guard and Reserves are called upon 
for domestic emergencies as well as to serve with our Armed 
Forces overseas. These brave men and women can be deployed for 
many months at a time and face unique struggles when returning 
to their businesses and other jobs.
    The Veterans Business Outreach Program provides 
entrepreneurial development services such as business training, 
counseling and mentoring. These services are no less important 
for National Guard and Reserve members than for other 
servicemen and women.
    This amendment is very simple. It is simply a fair and just 
way to honor those in the National Guard and Reserves who serve 
our Nation.
    I yield back.
    Chairwoman Velazquez. Both Mr. Graves and I are in support 
of the amendment. It is a straightforward amendment, and I want 
to thank the gentlelady for her contribution on this 
legislation.
    Are there any other members that wish to be recognized on 
this amendment?
    Hearing none, the question is on the amendment offered by 
Ms. Dahlkemper. All those in favor say aye.
    In the opinion of the Chair, the ayes have it, and the 
amendment is agreed to.
    Does any other Member seek recognition for the purpose of 
offering an amendment?
    Mr. KING. Madam Chair?
    Chairwoman Velazquez. I recognize the gentleman from Iowa.
    Mr. King. I have an amendment at the desk.
    Chairwoman Velazquez. The Clerk will report the amendment.
    [The information is included in the appendix.]
    The Clerk. An amendment to H.R. 2352 offered by Mr. King of 
Iowa, page 11.
    Chairwoman Velazquez. I ask unanimous consent that the 
amendment be considered as read, and the gentleman is 
recognized.
    Mr. King. Thank you, Madam Chair.
    Having spent nearly 30 years as an entrepreneur myself with 
a small business and sold that off to my second-generation 
oldest son, I looked at this proposal that is here--and having 
worked with SCORE, by the way, and appreciating the work that 
they do--but one piece that appears to be missing to me is the 
lack of peer-to-peer interactivity.
    So what my amendment does is it establishes--we will have 
an online education Web site that is part of this--but my 
amendment establishes an online Web site for use by potential 
and existing entrepreneurs to facilitate peer-to-peer technical 
assistance. So think of it in terms of adding to the Web site a 
forum or even a developed frequently-asked-question component 
so that peer-to-peer of whatever particular business you might 
be in or considering going in, you could go in on that Web 
site, you could get your frequently asked questions answered, 
and then if they are not answered, you could ask it in the 
forum component of this so that the other peers then could 
provide and offer those answers.
    I would add to this that according to a Web site that I 
perused here the other day, they counted--these would be 
divisions and departments--but they counted 682 different 
Federal agencies. That is an astonishing number, and it is 
something that would add to the fear factor of any entrepreneur 
and hopefully that the addition to this good legislation of a 
peer-to-peer component to the Web site would be something that 
will help multiply the effectiveness of it.
    And with that, I would urge its adoption.
    Chairwoman Velazquez. I thank the gentleman for his 
amendment.
    I want to support it. I think the purpose and the approach 
of the amendment is good for the legislation. It is critical 
that we use existing resources to create new avenues for 
entrepreneurial education. And I think that this type of 
amendment really enhances the effectiveness of the legislation 
we have before us.
    Mr. Graves, do you have any remarks regarding the 
amendment?
    Mr. Graves. I don't. I think Mr. Thompson is the only one 
on our side who does.
    Chairwoman Velazquez. Mr. Thompson is recognized.
    Mr. Thompson. Thank you for moving forward with this 
important package. Mr. King's amendment to this section is a 
commonsense approach to further expand technology to 
entrepreneurs in order to increase the dissemination of 
information across peer-to-peer networks, and through providing 
an avenue of individuals to connect with each other we decrease 
the dependence on the SBA ultimately and facilitate information 
sharing of real-life stories and experiences that benefit all 
entrepreneurs. And it reminds me of the saying "when you teach 
a man to fish, that's where the value comes in."
    I believe this amendment will stand to benefit this section 
of the bill and urge the committee to support Mr. King's 
amendment.
    And I yield back the balance of my time.
    Chairwoman Velazquez. The question is on the amendment 
offered by Mr. King. All those in favor say aye.
    In the opinion of the Chair, the ayes have it. The 
amendment is agreed to.
    Does any other person seek recognition for offering an 
amendment?
    Ms. Halvorson. I have an amendment at the desk.
    Chairwoman Velazquez. The Clerk will report the amendment.
    The Clerk. An amendment to 2352--
    [The information is included in the appendix.]
    Chairwoman Velazquez. I ask unanimous consent that the 
amendment be considered as read.
    Ms. Halvorson. Thank you.
    My amendment is very simple. It will make surviving spouses 
eligible for assistance from the SBA's Veterans Business 
Centers. This will include surviving spouses of Armed Forces 
members, Reservists, National Guardsmen and veterans.
    As the committee is well aware, most small businesses are 
family enterprises. Surviving spouses of our brave men and 
women who serve in uniform should be eligible for assistance 
from the Veteran Business Centers, and my amendment--which is 
supported by the VFW--will make this possible.
    I ask for the committee's support, and I yield back the 
balance of my time.
    Chairwoman Velazquez. Thank you.
    I strongly support this amendment, and I urge its adoption.
    Mr. Gohmert. Madam Chair, I move to strike the last word.
    Chairwoman Velazquez. Yes, Mr. Gohmert.
    Mr. Gohmert. I do appreciate the amendment. For those who 
are familiar with serving in the service, you know that it is 
not only those that wear the uniform that serve, the spouses do 
serve. The families serve. I think this is a very thoughtful 
amendment, and I would encourage others to support it as well.
    Thank you, Madam Chair. I yield back.
    Chairwoman Velazquez. Are there any other members who wish 
to be recognized on the amendment?
    Hearing none, the question is on the amendment offered by 
Ms. Halvorson. All those in favor say aye.
    In the opinion of the Chair, the ayes have it, and the 
amendment is agreed to.
    Does any other member seek recognition for the purpose of 
offering an amendment?
    Seeing no further amendments, the question is on reporting 
H.R. 2352, as amended.
    All those in favor say aye. Those opposed no.
    The ayes have it. H.R. 2352, as amended, is reported.
    This concludes the committee's business for today.
    I ask unanimous consent that the committee is authorized to 
correct section numbers, cross-references and to make necessary 
technical and conforming corrections on the bill considered 
today.
    Without objection, so ordered.
    This markup is adjourned.
    [Whereupon, at 2:35 p.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T9617.001
    
    [GRAPHIC] [TIFF OMITTED] T9617.002
    
    [GRAPHIC] [TIFF OMITTED] T9617.003
    
    [GRAPHIC] [TIFF OMITTED] T9617.004
    
    [GRAPHIC] [TIFF OMITTED] T9617.021
    
    [GRAPHIC] [TIFF OMITTED] T9617.022
    
    [GRAPHIC] [TIFF OMITTED] T9617.023
    
    [GRAPHIC] [TIFF OMITTED] T9617.024
    
    [GRAPHIC] [TIFF OMITTED] T9617.025
    
    [GRAPHIC] [TIFF OMITTED] T9617.026
    
    [GRAPHIC] [TIFF OMITTED] T9617.027
    
    [GRAPHIC] [TIFF OMITTED] T9617.028
    
    [GRAPHIC] [TIFF OMITTED] T9617.029
    
    [GRAPHIC] [TIFF OMITTED] T9617.030
    
    [GRAPHIC] [TIFF OMITTED] T9617.031
    
    [GRAPHIC] [TIFF OMITTED] T9617.032
    
    [GRAPHIC] [TIFF OMITTED] T9617.033
    
    [GRAPHIC] [TIFF OMITTED] T9617.034
    
    [GRAPHIC] [TIFF OMITTED] T9617.035
    
    [GRAPHIC] [TIFF OMITTED] T9617.036
    
    [GRAPHIC] [TIFF OMITTED] T9617.037
    
    [GRAPHIC] [TIFF OMITTED] T9617.038
    
    [GRAPHIC] [TIFF OMITTED] T9617.039
    
    [GRAPHIC] [TIFF OMITTED] T9617.040
    
    [GRAPHIC] [TIFF OMITTED] T9617.041
    
    [GRAPHIC] [TIFF OMITTED] T9617.042
    
    [GRAPHIC] [TIFF OMITTED] T9617.043
    
    [GRAPHIC] [TIFF OMITTED] T9617.044
    
    [GRAPHIC] [TIFF OMITTED] T9617.045
    
    [GRAPHIC] [TIFF OMITTED] T9617.046
    
    [GRAPHIC] [TIFF OMITTED] T9617.047
    
    [GRAPHIC] [TIFF OMITTED] T9617.048
    
    [GRAPHIC] [TIFF OMITTED] T9617.049
    
    [GRAPHIC] [TIFF OMITTED] T9617.050
    
    [GRAPHIC] [TIFF OMITTED] T9617.051
    
    [GRAPHIC] [TIFF OMITTED] T9617.052
    
    [GRAPHIC] [TIFF OMITTED] T9617.053
    
    [GRAPHIC] [TIFF OMITTED] T9617.054
    
    [GRAPHIC] [TIFF OMITTED] T9617.055
    
    [GRAPHIC] [TIFF OMITTED] T9617.056
    
    [GRAPHIC] [TIFF OMITTED] T9617.057
    
    [GRAPHIC] [TIFF OMITTED] T9617.058
    
    [GRAPHIC] [TIFF OMITTED] T9617.059
    
    [GRAPHIC] [TIFF OMITTED] T9617.060
    
    [GRAPHIC] [TIFF OMITTED] T9617.061
    
    [GRAPHIC] [TIFF OMITTED] T9617.062
    
    [GRAPHIC] [TIFF OMITTED] T9617.063
    
    [GRAPHIC] [TIFF OMITTED] T9617.064
    
    [GRAPHIC] [TIFF OMITTED] T9617.065
    
    [GRAPHIC] [TIFF OMITTED] T9617.066
    
    [GRAPHIC] [TIFF OMITTED] T9617.067
    
    [GRAPHIC] [TIFF OMITTED] T9617.068
    
    [GRAPHIC] [TIFF OMITTED] T9617.069
    
    [GRAPHIC] [TIFF OMITTED] T9617.070
    
    [GRAPHIC] [TIFF OMITTED] T9617.016
    
    [GRAPHIC] [TIFF OMITTED] T9617.017
    
    [GRAPHIC] [TIFF OMITTED] T9617.018
    
    [GRAPHIC] [TIFF OMITTED] T9617.019
    
    [GRAPHIC] [TIFF OMITTED] T9617.020
    
                                 <all>

</pre></body></html>
